HHS/OIG-Audit--"Improvements Needed in Monitoring Child Placing Agencies
in the Texas Foster Care Program, (A-06-94-00041)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Improvements Needed in Monitoring Child Placing Agencies in the Texas Foster
Care Program," (A-06-94-00041)
August 5, 1995
Complete
Text of Report is available in PDF format (1.95 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Texas Department of Protective and Regulatory
Services (TDPRS) was unable to ensure that child placing agencies and their foster
homes were meeting required standards, and that State case workers were monitoring
the status of children while they were in the care of these homes. For example,
in 18 cases the child placing agency case workers did not contact the children
quarterly nor visit the foster home quarterly as required, in 28 cases there was
no record showing that a background check was make on all adults who lived in the
foster home, in 40 cases at least one fire and/or health deficiency was noted,
and in 71 cases State case workers did not have the required contact with the foster
children. Recommendations call for actions the TDPRS can take to assure the adequacy
of performance by child placing agencies, foster homes, and State case workers.